            estimony


                      STATEMENT OF
                    DONALD MANCUSO
                DEPUTY INSPECTOR GENERAL
                 DEPARTMENT OF DEFENSE
                       BEFORE THE
        SENATE COMMITTEE ON THE ARMED SERVICES
                           ON
        ISSUES FACING THE DEPARTMENT OF DEFENSE
             REGARDING PERSONNEL SECURITY
                CLEARANCE INVESTIGATIONS

Report No. D-2000-112           DELIVERED: April 6, 2000




             Office of the Inspector General
                 Department of Defense
                                                                    1

Mr. Chairman and Members of the Committee:



I appreciate the opportunity to testify before you today on the

extremely important issue of security clearances for Department

of Defense military, civilian and contractor personnel.    As you

know, there has been a lot of attention directed toward this

issue recently.   In correspondence with congressional leadership

last December, my office designated security concerns as one of

the top management challenges facing the DoD.   The importance of

the issue is apparent—-increased risk exists when individuals

without current security clearances have access to classified

defense information.   Further, DoD programs at many levels are

adversely impacted when security clearances either are not

provided in a timely manner or are inappropriately granted

because of failures in the investigative or adjudicative

process.



Security Clearances.   Personnel security clearance

investigations are intended to establish and maintain a

reasonable threshold for trustworthiness through investigation

and adjudication before granting and maintaining access to

classified information.    The initial investigation provides

assurance that a person has not demonstrated behavior that could

be a security concern.    Periodic reinvestigation is an
                                                                    2

important, formal check to help uncover changes in behavior that

may occur after the initial clearance is granted.   The standard

for periodic reinvestigation is 5 years for Top Secret, 10 years

for Secret, and 15 years for Confidential clearances.

Reinvestigations are actually more important than the initial

clearance investigation, because people who have held clearances

longer are more likely to be working with more critical

information and systems.



There are three phases to the security clearance process.    The

first phase is the application process.   Each DoD component is

responsible for ensuring new employees and current employees

needing a periodic reinvestigation submit required information.

The second phase includes the actual investigations, most of

which are conducted by the Defense Security Service (DSS).    The

third phase is the adjudication process, in which investigative

results are sent to one of the adjudication facilities for

decision on whether to grant, deny, or revoke a security

clearance.



The scope of investigative work required is determined by the

type of clearance and whether it is an initial or periodic

reinvestigation.   For example, according to DSS data, it takes

an average of 306 days to complete an initial investigation for
                                                                     3

a Top Secret clearance and an average of 211 days to complete a

periodic reinvestigation for a Secret clearance.



Recurrence of a Prior Problem.   Excessive numbers of pending

personnel security investigative cases and delays in getting

cases processed are not new problems.    In 1981 and 1982, we and

the General Accounting Office issued three reports about the

increasing backlog of personnel security investigations.   It was

noted that, between 1979 and 1981, the number of pending

security clearance investigative cases had increased from 33,900

to 76,600 and the time to complete a security investigation had

increased from 71 days to 149 days.   The General Accounting

Office estimated that the productivity losses of DoD and its

contractors from untimely processing of personnel security

investigations were $920 million annually.   At that time, those

figures were considered unacceptable by both the Department and

the Congress.   The root of the problems was a lack of personnel

to perform and process investigations.   In response to the audit

findings, the Department provided additional staffing to what

was then called the Defense Investigative Service (DIS) and is

now the DSS.    The organization expanded dramatically from a 1982

level of 1,959 to 4,080 personnel in 1989.   However, post Cold-

War downsizing then reduced DSS by 40 percent to 2,448 in 1999.
                                                                    4

Follow-up on the General Accounting Office Report.   In October

1999, the General Accounting Office (GAO) issued a report

entitled “DoD Personnel:   Inadequate Personnel Security

Investigations Pose National Security Risks.”    The report was

highly critical of the quality of DSS security clearance

investigations and the excessive time to process investigative

cases.   In essence, the report indicated that the situation in

mid-1999 was considerably worse than when the significant

concerns were raised in 1981 and 1982.   The report made

12 recommendations to correct the problems and the Department

fully concurred.



We have followed up on the GAO recommendations through

attendance at monthly status reviews held by the Director, DSS,

and are conducting a series of audits as well.    I am pleased to

be able to report to you that we have an excellent working

relationship with senior DSS managers, including Director

Cunningham.   He and his staff have been open and cooperative in

helping us complete our work.   The Director has also provided

“real-time” updates on the status of the GAO recommendations and

frequently requests our assistance to look into problems related

to the overall security clearance investigation process.
                                                                   5

Our follow-up efforts to date indicate that the Department is

making a concerted effort toward implementing GAO’s

recommendations.   Half of the corrective actions will be

completed this year, but the remaining corrective actions

require longer term efforts.   We plan to continue our follow-up

efforts until all recommendations have been implemented.



Personnel Security Overarching Integrated Process Team.     On

November 30, 1999, the Deputy Secretary of Defense established

the Personnel Security Overarching Integrated Process Team.

Personnel from my office participated on the team.    On

January 20, 2000, the team briefed the results of their review

to the Deputy Secretary of Defense and recommended:



     •   outsourcing 43,000 Secret/Confidential personnel security

         investigations in FY 2000 and 71,000 investigations in

         FY 2001 to the Office of Personnel Management and its

         contractor, U.S. Investigations Services, to allow DSS to

         focus its resources on the Top Secret and Sensitive

         Compartmented Information investigations,



     •   researching alternatives to streamline and enhance the

         conduct of investigations, and
                                                                     6


     •   restoring investment in the Joint Personnel Adjudication

         System to improve management of those personnel cleared

         to access the most sensitive classified information.



The Deputy Secretary of Defense has tentatively approved the

plan and specific corrective actions related to the

recommendations.



Security Clearance Workload.   This week we issued a report,

“Security Clearance Investigative Priorities,” that discusses

why the Department needs to take additional measures, beyond

those recommended by the GAO and the DoD study team, to improve

the effectiveness and efficiency of the investigative process

for security clearances.



In December 1999, the Deputy Secretary of Defense allocated

additional resources to DSS.   The declared goal was to reduce

the length of time during which security clearance

investigations remain pending.   The DSS based the productivity

forecasts in its budget request on its ability to complete 2,300

investigations per day.    When we analyzed the DSS data, however,

we estimated that DSS could only expect to complete 1,500

investigations per day in FY 2000 and 2,000 investigations per

day in FY 2001.    The shortfall between the DSS estimate of 2,300
                                                                       7

cases per day and our more realistic estimate could increase the

number of investigative cases pending as shown below:



                     Investigative Case Workload


     FY 2000 Cases              DSS Estimate        IG Estimate

Beginning Balance 10/01/99         244,200          244,200
Added During Year                  634,100          634,100
          Total                    878,300          878,300

Completed During Year             -617,000         -415,500
     Total Pending 9/30/00         261,300          462,800

     FY 2001 Cases

Beginning Balance 10/01/00         261,300           462,800
Added During Year                  664,500           664,500
          Total                    925,800         1,127,300

Completed During Year             -662,300         -502,000
     Total Pending 9/30/01         263,500          625,300


The number of cases pending is growing, not remedied as planned.

In the first five months of FY 2000, an average of only 1,083

security cases per day were closed versus the goal of 2,300.      As

of February 29, 2000, there were 397,000 cases pending compared

to 244,200 cases on September 30, 1999, and to 151,000 cases on

June 30, 1999.   In that 8 month timeframe, the number of pending

cases increased by 163 percent.



The following table demonstrates the increasing time required to

close cases.
                                                                       8

                     Average Days To Close Cases



   Type of                 December 1999         February 2000
Investigation              Average Days           Average Days

Top Secret – Initial            257                    306

Top Secret – Periodic           262                    300

Secret – Initial                180                    237

Secret – Periodic               137                    211



We have identified several factors that bear on DSS performance:



1.   Case Control Management System.       In October 1998, the DSS

implemented a Case Control Management System which was intended

to expedite processing of security investigations.       This system

was designed to provide an electronic process for completing the

personnel security questionnaire needed to initiate a security

investigation, storing all relevant investigative reports for

easy reference and transmitting completed security

investigations to the adjudication facility.



The system failed.     Instead of expediting the security

investigation process, the system has actually caused serious

delays in information processing and delayed the number of case

openings.   In total, administrative delays caused by the system
                                                                    9

added 50 days to the average time for a case to be opened and 20

days for a case completion report to be printed and sent to the

adjudication facility.



2.   Increased Requirements for Security Clearance

Investigations.   Starting in the late 1990’s, greater numbers of

the DoD workforce have become retirement eligible with even

larger numbers on the horizon.   This turnover will significantly

increase the numbers of personnel security investigations

required for new hires.   For example, our recent review of the

acquisition workforce showed that of 129,000 personnel in

critical jobs, 55,000 will leave government service by 2005.

New hires create more workload for DSS because initial security

investigations require more time than periodic reinvestigations.

Further aggravating this problem, the Navy and Air Force

recently increased the level of security clearance

investigations required for new recruits, thereby increasing the

amount of work required on about 25,000 cases annually.

Additionally, growing concern about the quality of security

clearance investigations cited in the GAO report may cause the

adjudication facilities to return more cases to DSS for

additional investigative work.
                                                                    10

3.   Average Case Workload for DSS Will Be More Difficult.    The

decision to contract with the Office of Personnel Management for

civilian Secret and Confidential investigations, combined with

the Navy and the Air Force decision to increase the level of

security investigations required for new recruits, leaves DSS

with the more complex security investigations.    This increased

complexity will make it even more difficult for DSS to achieve

their goal of closing 2,300 investigative cases per day.



4.   Unrecognized DSS Workload.   Changing the type of

investigation, reopening cases, entering paper requests,

deleting duplicate requests, reviewing and returning invalid and

incomplete requests, and researching the status of requests to

respond to inquiries all currently require manual intervention

by the DSS case analysts, adding to the DSS workload.    As the

number of cases pending grows and cases take longer to complete,

there will be even more inquiries into the status of cases by

the Defense components and contractors.   This type of work

performed by DSS has never been fully considered when estimating

DSS workload, which is measured solely in terms of cases

received and closed.   Not counting these administrative

functions as part of the workload was a detriment to DSS when it

needed to account for its resources and budget.    The number of

case analysts needed, based on the actual workload, may in fact
                                                                   11

be considerably greater than reflected in current resource

plans.



Priority for Processing Investigations.   The DSS processes

security investigative cases on a first-in, first-out basis,

except for certain special programs.   We believe that the

current prioritization process is ineffective because it is too

limited, too easily overwhelmed by the sheer number of pending

cases and not responsive to user needs.   The continuing problem

of large numbers of personnel in mission-critical or high-risk

positions without updated security clearances while

investigative resources are being used on less important cases

is of great concern.   In the report that we issued this week,

we recommended that the Department initiate a business process

re-engineering effort to develop a comprehensive prioritization

method.   We also recommended that the Director, DSS, establish

the process and metrics to ensure expeditious processing of

personnel security clearance investigations in accordance with

the new priority system.



Although the DSS comments on our draft report were responsive,

we were frankly disappointed by the comments received from the

Office of the Assistant Secretary of Defense (Command, Control,

Communications and Intelligence) and the Army.   The former
                                                                    12

stated that implementing a comprehensive prioritization method

would be too hard and the latter stated it was unnecessary.    In

both cases, the response cited the belief that ongoing efforts

will alleviate delays, thereby ignoring our analysis as to the

true magnitude of the problem.   We disagree with both positions

and have asked the Assistant Secretary to reconsider his

position when responding to our final report.



Adjudication Process.   The officials at adjudication facilities

must review all investigative information, resolve conflicting

information and decide whether to deny, grant or revoke a

clearance.   Our most recent work with adjudication facilities

was discussed in Inspector General, DoD, Report No. 98-124,

“Department of Defense Adjudication Program,” April 27, 1998.

At the time of the audit, we found that 6 of 8 adjudication

facilities did not even keep statistics on the time needed to

process an adjudication.   The two facilities with data showed it

took 11 days to 15 days to process a case with no unfavorable

information and 153 days to 360 days to process cases with

unfavorable information.   Our report also identified a need to

standardize forms, eliminate the need for readjudication of

security clearances when personnel were transferred, provide

continuing training for adjudicators and establish a peer review
                                                                    13

process to ensure consistent application of adjudication

guidelines at each facility.



To address the audit findings, the Department is developing the

Joint Personnel Adjudication System (JPAS).    When implemented in

early 2001, JPAS will preclude the need for multiple forms and

readjudication.    A training curriculum was also developed and a

standard training class for adjudication personnel was

disseminated in January 2000.



The Assistant Secretary of Defense (Command, Control,

Communications and Intelligence) decided on October 22, 1999, to

implement a formal peer review mechanism to oversee central

adjudication facility implementation of the national

adjudication guidelines.    Specific guidelines pertaining to this

process will be inserted into the pending revision of DoD

Regulation 5200-2R, DoD Personnel Security Program.    The

guidance will mandate the creation of a small team of DoD

adjudicators (3-5 persons), manned on a rotating basis by

experienced adjudication personnel, which will visit a DoD

central adjudication facility each quarter to examine its

policies, procedures, and practices, to include sampling of

actual cases.     The results of these peer reviews will be

provided to the Assistant Secretary of Defense.    It is expected
                                                                   14

that this oversight will be initiated no later than the first

quarter of FY 2001.



Ongoing and Planned Audit Work.   We have several ongoing and

planned audits relating to DSS and the DoD security clearance

issues.   We issued a draft audit report on March 31, 2000, on

the DSS process for tracking security clearance requests and

notifying the requesting agencies of the status of their

requests.   We are also assessing the accuracy, timeliness, and

availability of information in the Defense Clearance and

Investigations Index, which is the central index of all DoD

personnel security investigations and clearances.   Another

ongoing audit is focused on the policies of the Military

Departments and Defense agencies regarding clearance reciprocity

within the special access program community.



In addition, we are initiating other audits in response to the

March 14, 2000, request from the Chairmen of the Senate and

House Committees on Armed Services.   We recently began an audit

of the acquisition and management of the Case Control Management

System.   We also plan an audit of certain aspects of the

adjudication process that are not already under review by the

General Accounting Office.
                                                                   15

Conclusion.     The Office of the Inspector General, DoD, is

putting high priority on efforts to support the Department and

the Congress as they work to improve the security clearance

posture.   To help resolve the current problems, I believe the

Department needs to:



•   more actively oversee and manage the workload at the DSS and

    adjudication facilities, with the expressed intent of

    maintaining high standards for both quality and timeliness;



•   implement performance metrics that will measure both the

    quality and timeliness of investigative and adjudication

    workload;



•   periodically assess and adjust the resource requirements for

    DSS, outsourced investigative effort, and the adjudication

    facilities;



•   develop a uniform, DoD-wide priority system for security

    clearance investigations; and



•   closely monitor management of the Case Control Management

    System and the Joint Personnel Adjudication System.
                                                               16




I appreciate your interest in our reports and views on these

challenging matters.   This concludes my statement.
